Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





          LIVER BIOPSIES





          AUGUST 199 OEI-   12-8

                EXECUTIVE SUMMAR 

PUROSE
The Office of Inspector General (OIG) conducted this study to review the
performance , coding, and financing of liver biopsies paid for by the Medicare program.

BACKGROUN
Liver biopsies are used to diagnose liver disorders , such as cancer , hepatitis , and
cirrhosis. Physicians can biopsy livers in a number of ways:

       A needle may be inserted through the skin and between the ribs to draw a
       sample (a closed needle biopsy);

       A surgical incision may be made into the abdomen , and a needle used to obtain
       a specimen (an open needle biopsy);

       Following a surgical incision into the abdomen , a wedge of tissue may be
       excised (an open wedge biopsy).

Physicians and hospitals use two different coding      systems to submit claims to Medicare
for these procedures. Hospitals , using the         International Classification of Diseases. 9th

Revision. Clinical Modification (ICD- CM), describe the biopsies as " open (wedge)"
or " closed (needle), " while physicians , using a version of     Physicians ' Current
Procedural Terminology (CPT- 4) describe them as " needle " or "wedge. " Neither
system fully describes an open needle procedure. Coding instructions for physicians
instruct them not to bil for open biopsies unless they are " separate procedures " not
performed incident to another procedure.

Only open procedures contribute to determining payment to hospitals. Knowing that
this is a potential area for abuse , the Health Care Financing Administration (HCFA)
requires Medicare s fiscal intermediaries to review operative reports for each open
biopsy claim submitted.



MElHODS
The OIG randomly selected 329 physician claims for liver biopsies , representing a 1
percent sample of 1986 claims. We obtained hospital records for 88 percent of these
claims , and subjected them to medical review and coding validation.

FIINGS
       Liver biopsies in which the abdomen is opened but only a needle sample is
       taken cannot be described correctly under the current coding systems. These
       procedures represent 14 percent of all liver biopsies.
      Thirteen percent of physician claims for liver biopsies were miscoded.

      Thirty-one percent of payments to physicians should not have been made
      either because they did not perform the procedure as biled ($256), or because
      it was performed in the course of a more major procedure ($12 618). This
      generalizes to $1 287 400 in overpayments to physicians for liver biopsies in
       1986.

      In only one case was payment made incorrectly to a hospital , indicating that the
      fiscal intermediary review of operative reports is successful.

RECOMMATIONS
The HCF A should ensure that payment for all biopsies can be made correctly,         by:


               Recommending that the coding structures be changed so that all
               biopsies , particularly open needle biopsies , can be properly classified.

               Ensuring that carriers adjust payment for open biopsies performed in the
               course of more major procedures.

In commenting on the draft version of this report, HCFA indicated that codes have
been created to indicate biopsies performed in the course of more major surgery, with
a reduction in payment. They do not believe that carriers should adhere to CPT
guidelines , since HCF A can issue guidelines which supercede CPT guidelines. HCF A'
comments are attached in their entirety.
                                                                                         . . . . . . . . . . . . .. ... .. . . ....
                 . . . . . . . . . . . . .. .. . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. ... .. . . . . . . . ..




                             TABLE OF CONTENTS

EXECUTIVE SUMMAY
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDINGS

RECOMMENDATIONS ............................................. 7


   APPENDIX: HCFA' s COMMENTS
                          INTRODUCTION

PUROSE
The Office of Inspector General (OIG) conducted this study to review the
performance , coding, and financing of liver biopsy procedures for patients covered
under Medicare. This inspection analyzed a random sample of liver biopsies to
determine:

        the accuracy of procedural codes assigned to liver biopsies , by physicians and by
        hospitals

        the medical necessity of biopsies , and

        the accuracy of Diagnosis- Related   Groups (DRGs) assigned to hospital stays in
        which a liver biopsy was performed.


BACKGROUN
The Health Care Financing Administration (HCFA), recognizing the potential for
misrepresentation of the procedure performed , requires Medicare fiscal intermediaries
(Fls) to review the hospital operative report for each claim for an open (i. , surgical)
biopsy. Only open biopsies increase the payment a hospital receives      for a patient
care.

Liver biopsy is a common procedure used to diagnose various medical conditions
including liver cancer , hepatitis , and alcoholic and bilary cirrhosis. Physicians and
surgeons employ three distinct methods for performing a liver biopsy:

        A needle may be inserted the skin and between the ribs to draw a sample;

        A surgical incision may be made into the abdomen , and a needle used to obtain
        a specimen;

        A wedge of tissue may be excised , through a surgical incision into the abdomen.


If a biopsy is incidental to the primary reason for opening the abdomen , Medicare
would not normally pay separately for it. The guidelines given to surgeons in
Physicians ' Current Procedural Terminology (CPT- 4), issued by the American Medical
Association , discuss when a procedure may be considered a "separate procedure " for
biling purposes. A wedge biopsy, when performed independently of, and not
immediately related to , other servces , may be listed as a separate service. The
guidelines do not address open needle biopsies. The " separate procedure " guidelines
also apply to laparotomies , or incisions into the abdomen , which may be biled for only
when it is performed independently of other surgery.

All three biopsy methods involve the risk of internal bleeding, and both open biopsy
methods involve the additional risks of general anesthesia and surgery. Open biopsies
always require general anesthesia and sometimes require the assistance of a second
surgeon for the operation.

Cog Concer
When submitting claims for Medicare Part B reimbursement physicians                              use the
HCFA Common Procedure Coding System (HCPCS), a version of the CPT- 4 coding
system referred to above. The HCPCS system classifies liver biopsies as either
 percutaneous needle " (47000) or "wedge (separate procedure)" (47100). This
requires , in effect , that physicians misclassify open needle biopsies into one of these
two categories.

                        hospital claims for Medicare Part A reimbursement , they
When records staffs submit 


use the International Classification of Diseases ,
                                              9th Revision , Clinical Modification
(ICD- CM). That system classifies liver biopsies as either "closed (percutaneous)
(needle)" (50. 11)             or " open biopsy of liver , wedge biopsy "      (50. 12).   The open biopsy
code was formerly referred to as " other. " Thus , hospital staff could at one time
properly code all liver biopsies using ICD- CM codes. They would have coded closed
needle biopsies as " percutaneous needle " and both open needle and wedge biopsies as
 other. " However, this coding scheme failed to distinguish between open needle and
wedge biopsies , and has now been changed so that open needle biopsies do not fit in
either code. Coding                                                 Coding Clinic , an
                                  instructions have been issued (through the

official source of coding information) that instruct coders to use both the needle
biopsy code , 50. 11 and the code for exploratory laparotomy, 54. , for an open needle
biopsy. This , however, is an exception to the general rule , cited in ICD­     , which
states that the exploratory laparotomy code should be omitted when the procedure is
incidental to intra-abdominal surgery.

Finncial Concern
The average amount allowed to the surgeon/internist in our sample for a needle
biopsy was $100. 66;             the average for a wedge biopsy was $296. 04.

Medicare pays hospitals based on a series of Diagnosis- Related Groups (DRGs),
which are weighted by their relative resource consumption. The average DRG has                               a
theoretical weight of 1.0000. On average , the more resource- intensive a typical case is
the higher the weight and reimbursement. In 1986, DRGs which included closed liver
biopsies and a diagnosis of liver disease ranged in weight from 0. 5794 to 1.1662.
Those which included open liver biopsies ranged in weight from 0. 7623 to 2. 7760.
Thus miscoding of the hospital or physician claim could have a significant impact on
payment.
MElHODS
The OIG selected the sample records analyzed in this study from the 1986 BMAD
procedure fie containing all Part B claims for a 5 percent systematic sample of
Medicare beneficiaries. The OIG selected 20 percent (or a random 1 percent sample
overall) of claims for procedure codes 47000 and 47100. This process identified 329
claims , representing 273 patients and 290 biopsies.    All Part B claims related to each
biopsy were identified. Thirty- three patients who had only one biopsy had a second
claim and three a third claim , usually for an anesthesiologist , radiologist , or assistant at
surgery. Seventeen patients had two claims on different dates , so presumably had two
biopsies.

In all but 17 cases , the OIG was able to identify the hospital in which the biopsy took
place. (In two of the 17 cases ,the physician s office confirmed that he/she had not
performed a biopsy, and the Part B claim was in error. ) The OIG requested the
entire medical record for the admission in which the biopsy took place from each of
the hospitals. In 88 percent of the sampled cases , we were able to obtain the medical
record. The final sample consisted of 289 claims for 237 patients representing 253
procedures.

The Health Data Institute (HDI) of Lexington , Massachusetts , recoded the records
determined the correct DRG , and extracted clinical information. Physicians reviewed
the indications for the surgery, adequacy of the workup, the post-operative monitoring,
etc. The BOTEC Analysis Corporation of Cambridge , Massachusetts , analyzed the
data and reported findings to the OIG.
                                 FINDINGS

 PHYSICIAS MISCODE 13 PERCENT OF

Thirteen percent (39 of 289 claims) were miscoded , claiming a wedge was performed
when actually a needle sample was taken , or vice versa , or biling when no biopsy, or
no procedure at all , was performed. Of the 91 claims for wedge procedures for which
records were obtained , 70 were correctly coded , 15 were actually needle procedures
and 6 were liver resections. Of the 198 claims for needle procedures for which
records were obtained , 180 were correctly coded , 9 were actually wedge procedures
                                                                                       , 3
were liver aspirations , and 3 were lung biopsies. In three cases , no procedure at all
was performed.


CODING SYSTEMS DO NOT ADEQUATEY DESCRffE 14 PERCENT OF
BIOPSIE
Both coding systems provide conceptually inadequate descriptions of open
                                                                          biopsies.
For example , medical record staff code an open needle biopsy procedure
                                                                         as " closed
(percutaneous)(needle), " but add a code showing that the abdomen was opened.
physician performing the same procedure might have categorized it as "
                                                                       wedge " to
emphasize that the procedure was open , and thereby created a misleading impression
that a needle biopsy had not occurred.

This creates two concerns. The first , and most important , is that open needle and
wedge procedures may require different amounts of medical resources. If this is true
then we may be reimbursing physicians and hospitals for these procedures incorrectly.
A second concern is that distinctions which are important for research purposes
cannot be made based on these codes.


THTY-ONE PERCENT OF PAYMNT TO PHYSICIAS SHOUL NOT
HAVE BEEN MAE

We estimate that over $1.2 milion in overpayments for liver biopsies were made to
physicians in 1986. These overpayments were due to     several incorrect uses of the
CPT coding system.

When a surgeon opens the abdomen only to biopsy an organ
                                                              , s/he may bil either the
biopsy code or a code for " laparotomy with or without biopsy(s).
                                                                  " If the surgeon uses
the biopsy code , the laparotomy should not be coded, as its only purpose was to
provide access to the organ biopsied. The laparotomy code includes all the biopsies
performed in that episode. Surgeons violated this principle in 14 claims, in which both
the biopsy and laparotomy were coded and paid. These 14 claims involved payments
 of $4 494 for biopsies , $6 344 for laparotomies , and $7659 for primary and secondary
 surgenes.

 In 90 cases   , the surgeon biled for a biopsy incidental to a more major procedure.
 six claims for a resection of the liver ,
                                      the liver tissue was removed because it was
cancerous or damaged. A pathologist would examine it and bil for his or her servces.
The surgeon , however , biled twice for removing the same piece of tissue.

In those cases where the major procedure was not on the liver, a surgeon may feel
that he or she should use a biopsy code to indicate one was done. This should not
confer additional reimbursement , however. In the 82 claims of this tye , carriers
allowed $12 618 for liver biopsies.


Of 20 claims by primary surgeons for biopsies as primary procedures , the average
amount allowed was $339. Of the 59 claims by primary surgeons for biopsies as
secondary procedures , the average allowed was $149.  Thus the claims for biopsies as
secondary procedures appear to reflect an acknowledgement that the biopsy is less
resource- intensive than when performed as the only procedure.

We arrived at the overpayment by totaling the payments made for procedures not
performed ($256) and those that were secondary to more major procedures ($12
                                                                             618).
This is 31 percent of all payments made for cases for which we obtained records
($41 187). This implies $1 287 400 in overpayments every year for liver biopsies.

We did not calculate overpayments for all erroneous claims , since we did not always
know the correct payment amount.


IN ONLY ONE CASE WAS A HOSPITAL PAI IMROPERLY

We obtained medical records for 47 hospital claims for open biopsy procedures. In all
but one case ,
            the medical record confirmed that an open biopsy had been performed.
In one case , a closed biopsy had been done , and in three cases , while other
information in the chart confirmed that an open procedure had been done , the
operative report did not describe the biopsy.



This finding suggests that the Fls generally have been successful in obtaining and
evaluating operative reports. In the one case referred to above
                                                                , the hospital coded
open biopsies of both the kidney and the liver, when in fact both biopsies were
                                                                                  closed.
Correcting the codes changed the case from DRG 442 , with a weight of 1.8156
                                                                                , to
DRG 452, with a weight of 0. 8080. This is a difference in payment to the hospital of
more than $2 500.
MEDICAL NECEIT OF               UV BIOPSIE CONF
Medical review provided little evidence of unnecessary or inappropriate biopsies. Our
review found that:

    98 percent of all biopsies were appropriate in the context of the patients ' ilnesses
    and medical histories.

    91 percent of open needle biopsies were appropriate.

    100 percent of all wedge biopsies were appropriate.

    98 percent of all closed needle biopsies were appropriate.

Internists prescribed 70 percent of biopsy procedures , while surgeons prescribed the
remainder (often incidental to direct observation of the liver during another
procedure ).

However , while the procedures were clinically appropriate in the abstract , they were
questionable considering the patient's chance of survval. In virtually all the patients
determined to have cancer , the physicians knew that almost to certainty based on
diagnostic imaging and laboratory analysis (such as carcinoembryonic antigen (CEA)
determinations). The physicians performed biopsies for absolute confirmation , and in
a few cases to determine if a shunt should be inserted to deliver chemotherapy directly
to the liver. In only one instance was the cancer in an early enough stage to insert a
shunt. In 15 of 66 cases the patient died in the hospital. Of the 51 remaining cancer
patients , 21 died within a month of discharge.

In those patients without liver cancer , the probability of survival 1 year past the biopsy
was 75 percent. In the patients with cancer, however, the probability of their survving
a year was only 25 percent.


DRG CODING ACCUCY               FLWED
The 289 cases for which records were obtained represented 241 unduplicated hospital
stays. Only 71 percent of the cases were assigned to the correct DRG. Sixty-eight
percent of the closed needle biopsies ,   74 percent of the open needle biopsies , and 76
percent of the wedge biopsies were correct. This is a higher rate of incorrect coding
than found in previous OIG studies, and may be related to the fact that these patients
generally had multiple , complex diagnoses.
                     RECOMMENDA TIONS

The HCF A should ensure that payment for all biopsies can be made correctly,    by:


       Recommending that the coding structures be changed so that all biopsies can
       be properly   classified.

       Ensuring that carriers adjust payment for open biopsies performed in the
       course of more major procedures.

The HCF A' s  policy requiring Medicare fiscal intermediaries to review operative
reports for open biopsies has generally been successful and should be continued.

In commenting on the draft version of this report , HCFA indicated that codes have
been created to indicate biopsies performed in the course of more major surgery, with
a reduction in payment. They do not believe that carriers should adhere to CPT
guidelines , since HCF A can issue guidelines which supercede CPT guidelines.
APPENDIX

 HCF A' s Comments
                                                                    :- -. .'-   '''   ' ==:::::::



                                                                                                              Health Care
          DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                              Financing Administration


4J(1       JUN I 0 1992                                                                                       Memorandum
Date
                      Toby, Jr. 
   V'/
From      Acting Admistrator                                                                        PDIG
                                                                                                    DIG-AS
                                                                                                    DIG-EI
Sublect   OIG Draft Report - " Liver      Biopsies. "   OEI- 12:S8-                                 DIG- OI
                                                                                                    AIG- MP
          Inspector General                                                                         OGC/IG
          Office of the Secretary                                                                   EX SEC
                                                                                                    DATE SENT 





              We reviewed the subject draft report concerning coding and payment for liver
          biopsies biled to the  Medicae program. Liver biopsies are used to diagnose liver
          disorders , such as cancer, hepatitis, and cirhosis. The codig of the method used to
          obtain the biopsy determes the amount that Medicae will pay the hospital or
          provider.

              OIG found that 13 percent of the claims for liver biopsIes reviewed in the study
          were miscoded by physicians, and that 31 percent of the payments made to physicians
          for these biopsies were not appropriate. OIG estimted that $1.2 mion
          overpayments for liver biopsies were made to physicians II 1986. However , OIG only
          found one case in which a hospital was paid improperly for a biopsy procedure. The
          report nOted that this fiding suggests that Medicare fisc .1 intermediares have been
          successful in obtaining and evaluating operative reports.

              OIG recommends that coding structures for liver biopsies be changed so that all
          biopsies can be properly classified. OIG also recommends that the Health Cae
          Financing Admiistration (HCF A) should ensure that ca"iers adhere to exiting
          guidelines in the Physicians ' Current Procedural Termology (CPT- 4) which provide
          for exclusion of open biopsies performed during the course of more major
          procedures. OIG states that HCFA' s policy requirg Medicae fiscal intermediares
          to review operative reports for open biopsies has generaly been successful and should
          be continued. We concur with the recommended coding structure changes and the
          statement regarding Medicare fiscal intermediaries ' review of operative report for
          open biopsies. We do not agree that HCF A should ensure that carers adhere
          existing CPT - 4 guidelines. Our specific comments on the recommendations are
          attached for your consideration.



              Thank you for the opportunity to review and comment on this report. Please
          advise us if you agree with our position on the report s recommendations at your
          earliest convenience.


          Attachment                                                                     "lt
                                                           _. e 



                                                                    .:, ..;.: \w            C,1
 Recommendation

 HCF A should recommend that codig structures be changed so that al biopsies
 particularly open needle biopsies, can be properly classifed.

HCF A Response


We concur. We believe changes made in 1992       to the Physicians '   Curent Procedural
T enninology (CPT - 4) complete all necessar correcre     actions for thi
recommendation. Procedure codes were added to the CP- 4 for open needle
biopsies of the liver. Diferent codes were establihed to
                                                         indicate if the open needle
biopsy was done separately or durig a major procedure. The relative value of an
open needle biopsy performed durig the course of a major procedure does not
                            openig and closing the abdomen.
include the value attributed to


Recommendation 2


HCFA should ensure that carers adhere to existing CPT- 4 guidelines which provide
for the exclusion of open biopsies performed durig the course of more major
procedures.

HCFA Response

We do not concur that payment for open needle biopsies performed      durig the
course of more major procedures should be fully denied.
                                                            The carrer medical

directors have advised us that obtaing a needle biopsy of the liver durig a larger
procedure involves additional work and that additional payment is appropriate.
However , the relative value established for add-on code 47001 (open needle biopsy
performed during the course of a major procedure) does not include the relative
value of the work of opening and closing the abdomen. We do agree, however, that
payment should be excluded for open biopsies biled as " separate procedures " which
were performed during the course of major surgery.

It should also be noted that, as of January 1 , HCF A has the authority to establish
uniform national definitions of servces , codes to represent servces , and payment
modifiers to the codes. Therefore. HCF A can issue guidelies that are diferent from
those in the CPT- 4 manual. To the extent that instructions in the CPT- 4 manual are
Page 2


unclear or are contrary to payment policy associated with the physician payment
reform rules, HCF A wi issue instructions that are diferent from or wi clar those
in the CPT- 4 manual. These HCFA guidelies would supersede any CP- 4 manual
instructions. In order to ensure uniorm payment policy, HCF A wi anualy issue a
Medicare Fee Schedule data base tape which-ll include payment policy indicators
for each code to the carers.

